u>
f

= 66 14

NO.; 20-

SUPREME COURT OF THE UNITED STATES

ORIGINAL
Derek N. Jarvis,

FILED
NOV 0 2 2020

Petitioner

g^EM°EFc5l^0l<

VS .

Isiah Leggett, Et A1.,
Respondent(s)

On Petition For A Writ of Certiorari To The
Maryland Court of Appeals
PETITION FOR A WRIT OF CERTIORARI

Derek N. Jarvis, Petitioner
2316 Jones Lane
Silver Spring, Maryland 20902
(301) 252-9781

SUPREMpflli&Ssr..
L

-w

2®N0V«2 PN |117

(; .

Isiah Leggett, Respondent(s)
Montgomery County Executive
County Attorney(s)
Erin Ashbarry, Esquire
Associate County Attorney
101 Monroe Street
Third Floor
Rockville, Maryland 20850
Tel:(240) 777-6700
Counsel For Isiah Leggett
Montgomery County, Maryland

NOV - 5 2020
supreme"cTnim(yLP,fy

i
TABLE OF CONTENTS

TABLE OF AUTHORITIES

ii

QUESTIONS PRESENTED

iii

PARTIES TO THE PROCEEDINGS

iv

OPINIONS BELOW

v

JURISDICTION

vi

CONSTITUTIONAL PROVISIONS & STATUTES

vi

RELATED CASES

vi.

RELATED CITATIONS

vii

STATEMENT

1

REASONS FOR GRANTING WRIT
Maryland Court of Appeals erred when it Held that
Isiah Leggett was not liable for malicious act(s)
by his County Officials Michael Subin & Melissa Wiak

3

THE MARYLAND COURT OF SPECIAL APPEALS UNREPORTED
OPINION CONFLICTS WITH THE SUPREME COURT PRECEDENT &
CONTRADICTS IT'S OWN PRECEDENT.............................................

4

ISIAH LEGGETT HAS NO IMMUNITY FOR MALICIOUS AND DELIBERATE
ACT(S)..............................................................................................................

5

ISIAH LEGGETT IS NEGLIGENT IN THIS CASE AS A RESULT OF
DELIBERATE ACT(S) BY COUNTY OFFICIALS...................................

7

MARYLAND COURT OF APPEALS UNREPORTED OPINIONS ARE
UNCONSTITUTIONAL-MARYLAND GEN. PROVISION 1-104 is NOT AUTHORITY
AND IS NEITHER PRECEDENT WITH THE RULE OF "STARE DECISIS"
8
THE TRIAL COURT ERRED WHEN IT FAILED TO TRANSFER CASE TO
ANOTHER VENUE..........................................................................................
CONCLUSION

9
10

TABLE OF AUTHORITIES
CASES

PAGE

Ashton, 456...Public Official immunity is not applicable
for intentional torts.........................................................................

iii

Monell, 436 U.S. at 690

vi

ACLU vs. Wicomico County, 999 F.2d 780, 785
(4th Cir. 1993)..........................................................

vi

Connick vs. Thompson, 563 V. S. 51, 61 (2011)

vi

Farmer vs. Brennan, 522 U.S. 834, 842,

vi

City of Canton, 489 at 694

vi

Monell, 436 U.S. at 694

vi

Santiago vs. Fenton, 891 F.2d 373, 381
(1st Cir. 1989)...............................................

vi

Sawyer vs. Humpries, 82 Md.App.72 (1990)

3

Malley vs. Briggs, 475 U.S. 335, 341 (1986)

5

Monell vs. Dep't of Social Services, 436 U.S.
658, 691092 (1976)....................................................

6

Rochin vs. California, 342 U.S. 165 (1952)

6

Gibson vs. Brooks, 2004 WL 2095610
(D.Conn. 2004).........................................

6

Harlow vs. Fitzgerald, 457 U.S. 800, 818 (1982)

6

iii
QUESTIONS PRESENTED
1- Md. Gen. Provision, 1-104, is not authority, nor based
on precedent within the rule of 'stare decisis', nor persuasive
authority. Maryland General Provision 1-104, by their own rule
states 1-104 is unconstitutional and does not follow
nor this Court. Since

Md. Gen. Prov.1-104,

precedent

is neither precedent

or within the rule of 'stare decisis', nor persuasive authority,
are the Order(s) by the Maryland Court of Appeals specifically,
in this case, UNCONSTITUTIONAL, or void, since they fail to follow
this Court, or is within the rule of '[s]tare [djecisis'?
Stare decisis is a legal doctrine that obligates Court's
to follow historical cases, when making a ruling on a similar
case. The Maryland Court of Appeals, have violated this rule
and doctrine in failing to follow law and precedent.
2- The Maryland Court of Appeals states: "We conclude
that public official immunity is not available with respect
to deliberate act(s) that form the basis for intentional torts,
or act(s) committed with actual malice". Md. Court of Appeals,
Public Official immunity is not applicable
In Ashton, 456
for intentional torts.Id. The lower court stated that Isiah
Leggett is not liable for deliberate acts committed by his
County Officials. Did the lower Court err, when it stated
Isiah Leggett { is not liable or not personally responsible
for the act(s) committed by County Officials for malicious
and deliberate act(s) against Petitioner Jarvis?
3-Did the lower court err, when it stated that Isiah
Leggett is not negligent for the malicious and deliberate
act(s) committed by County Officials?

4-Did the lower Court err, when it failed to transfer
the case out of Montgomery County, when Isiah Leggett's Office
was in that County, as well as County Officials, County Attorney's
and County judges'

iv

PARTIES TO THE PROCEEDINGS
Derek N. Jarvis, Petitioner-Pro se
2316 Jones, Lane
Silver Spring, Maryland 20902
Tel:(301) 252-9781
Isiah Leggett, Respondent(s)
County Executive
Montgomery County, Maryland 20850
County Attorney(s)
Erin J. Ashbarry
Edward B. Lattner
101 Monroe Street
Third Floor
Rockville, Maryland 20850
Tel:(240) 777-6700

V

OPINIONS BELOW

Maryland Court of Special Appeals
Judgment[Apx.[D ]

The opinion by The Maryland Court of Appeals, was UNREPORTED.
Maryland Court of Appeals failed to follow their own precedent
and failed to follow The Supreme Court. In fact, Maryland
General Provision 1-104,

is UNCONSTITUTIONAL, with respect

to Unreported opnions, as this provision states, Md.Gen.Prov. 1-104
(a) is NOT AUTHORITY-An Unreported opinion of the Court of Appeals
in Maryland Appeals Court, is neither precedent, within the rule
of 'stare decisis', nor persuasive authority, making the opinion
UNCONSTITUTIONAL and void.
Maryland General Provision 1-104,

makes the

Maryland Court of Appeals, unconstitutional

opinions by

according to the

legal doctrine of stare decisis.
Stare decisis, is a legal doctrine that obligates Court's
to follow historical cases, when making a ruling on a similar
case. Since The Maryland Court of Appeals, fails to follow
precedent of this Court or similar cases, or even their own
precedent or law, the Unreported opinions by The Maryland
Court of Appeals are not authority by their own provisions,
and thus, unconstitutional, and in which deprive litigants
specifically, Petitioner Jarvis, in this case of his rights
to an impartial judiciary, and
of

impartial judge.

Maryland Court of Appeals, appears designed to

The provision
deny litigants

of rights to fair access of the court.
This Supreme Court of United States, should absolutely, ,
address the question of Md.Gen.Prov. 1-104, and it's failure to
follow law, precedent or authority, and whether this provision
is UNCONSTITUTIONAL.

vi
JURISDICTION
Judgment of the Maryland Court of Appeals denied Petition
of Petitioner Jarvis, August 21, 2020- Maryland Court of
Special Appeals affirmed judgment of the trial Court on
June 3, 2020. Petitioner Jarvis, invoices this Court's jurisdiction
under 28 U.S.C.§1257, having timely filed this Petition for A Writ
of Certiorari within 90 days of Maryland Court of Appeals judgment.
CONSTITUTIONAL PROVISION & STATUTES
42 U.S.C. §1983
Md.Gen.Prov. 1-104
Md.Ann.Code §20-304
Md.Rule 2-601(a)(1)
28 U.S.C. § 1257

RELATED CASES
Maryland Court of Special Appeals, Judgment- June 3, 2020
Montgomery County Circuit Court, Judgment-February 26, 2019

vii
RELATED CITATIONS
In Monell, The Supreme Court determined that local
governmental bodies may be held liable under 1983, based on
it's individual agents or employees

that resulted in

a violation of the plaintiff's rights. 436 U.S. at 690.
The Maryland Court of Appeals, has held that, common law
public official immunity is not available with respect to
deliberate act(s), that form the basis for intentional torts,
contrary, to the lower court's opinion.
Thus, retaliation by a public official, for the exercise
of a constitutional right, is actionable. See ACLU vs. Wicomico
County. 999 F.2d 780, 785 (4th Cir. 1993)).
Monell claims based on a failure to adequately train,
show a deliberate difference to the rights of persons with
whom the'untrained employees' come into contact. Connick vs.
Thompson, 563 V. S. 51, 61 (2011).
In Farmer vs. Brennan, 522 U.S. 834, 842, the Supreme
Court held that, an official would be liable even if they had
mere suspicions, but declined to investigate them. Id.
A government agency may be held liable, when the "execution
of the governments policy or custom 'causes the injury. City of
Canton, 489 U.S. at 694 (finding government liability appropriate
where official policy was the moving force behind the constitutional
violation"). See Monell, 436 U.S. at 694, Santiago vs. Fenton, 891
F.2d 373, 381 (1st Cir. 1989).

No.: 20SUPREME;COURT OF THE UNITED STATES

Derek N. Jarvis,
Petitioner
vs.
Isiah Leggett, ET AL •

t

Respondent(s)

On Petition For A Writ Of Certiorari To The
Maryland Court Of Appeals
PETITION FOR A WRIT OF CERTIORARI

STATEMENT
This Petition will illustrate that review is
warranted, both Court of Special Appeals, and Maryland. Court
of Appeals, failed to follow The Supreme Court's precedent as
well as the precedent of The Maryland Court of Appeals. The
opinion of The Maryland Court of Appeals is completely
inconsistent with this Court , and conflicts with similar
rulings in this Court and others with respect to
County Officials

whether

have immunity for malicious act(s)wh.en

violating constitutional rights.
The Maryland Court of Appeals, has held that
Public Official immunity is not available with respect to
deliberate act(s), 'that form the basis for intentional torts'.
County Officials in Montgomery County, Maryland engaged in
malicious acts against Petitioner Jarvis, when they threatened
Petitioner Jarvis, depriving him of his constitutional rights
if he
County.

attempted to file a discrimination complaint in the

2
Michael Subin, Official in the County Executive's Office
Threatened to contact authorities on Petitioner Jarvis if he
filed a complaint of discrimination

at any County agency,

depriving Petitioner Jarvis of his rights. Mr. Subin,
was on conference call, with Melissa Wiak and other County
Officials at COunty Executive's Office when he called
Petitioner Jarvis to threaten him.

[ Apx.[A]

Michael Subin, County Official in Montgomery County,
has engaged in the behavior several times before in his over
20 years

as an Official in Montgomery County. Mr. Subin,

has threatened County Officials in the County, engaged in
sexual harassment against female staff, and had his law
license suspended for taking money from clients without
doing any work.

In addition, Mr. Subin,

has taken over

500,000.00 from Montgomery County and was ordered in Court
to pay the money back.
Thus, retaliation by a Public Official for the
exercise of a constitutional right is actionable. See ACLU vs
Wicomico County, 999 F.2d 780, 785 (4th Cir. 1993). Thus Isiah
Leggett is liable for the malicious act(s) and deliberate act(s)
of his County Officials, contrary , to

the lower court's ruling.

In Monell, The Supreme Court determined that local
government bodies may be held liable under 1983, based on it's
individual agents or employees
of the plaintiffs rights.

that resulted in a violation

3
JASONS FOR GRANTING THE W1
I. THE COURT OF APPEALS ERRED WHEN IT HELD THAT ISIAH LEGGETT
WAS NOT LIABLE FOR THE MALICIOUS ACT(S) OF COUNTY OFFICIALS
MICHAEL SUBIN AND MELISSA WIAK FOR DELIBERATE AND MALICIOUS
ACT(S) AGAINST PETITIONER JARVIS
In Sawyer vs. Humpries, 82 Md.App.72 (1990), we defined
malice as the " intentional doing of a wrongful act, without
just cause, excuse, or justification, which is reasonably
calculated to injure another".

In this case, Michael Subin,

a County Official in the Executive's Office [Apx.[A] contacted
Petitioner Jarvis, on September 14, 2017, and threatened
Petitioner Jarvis, stating, "He would contact authorities on
Petitioner Jarvis, if he contacted any agency to file a civil
rights complaint', which is obviously 'malicious', an intentional
doing of a wrongful act, without just cause, excuse, or
justification, which is reasonably calculated to injure another.
This is the precedent of Maryland Court of Appeals, which they
disregarded and ignored.
Thus, retaliation by .a public official for the exercise
of a constitutional right, is actionable. See ACLU vs. Wicomico
County, 999 F.2d 780, 785 (4th Cir. 1993)). As a result the
Petition

should be granted in this case.
If injury is the result of a policy, custom, or practice,

liability can be demonstrated by showing a series of'bad act(s)J
and inviting the court to infer from them, that the policymaking
level of government was bound to have noticed what was going on,
and by failing to do anything, must have encouraged, or at least
condoned the misconduct of subordinate officers who were directly
involved in the violations against Petitioner here.Id.

4
II. THE MARYLAND COURT OF APPEALS UNREPORTED OPINION CONFLICTS
WITH THE SUPREME COURT, CONTRADICTS IT'S OWN PRECEDENT
AND FAILS TO FOLLOW SIMILAR CASES WITH RESPECT TO
PUBLIC OFFICIALS NOT ENTITLED TO IMMUNITY FOR
DELIBERATE OR MALICIOUS ACTS THAT VIOLATED
THE RIGHTS OF PETITIONER JARVIS
In Monell, The Supreme Court determined that local
government bodies may be held liable under 1983, based on it's
individual agents or employees...........
violation of the plaintiff's rights,
with the lower

that resulted in a
This is in direct conflict

court's ruling, as The Maryland Court of Appeals

stated County Executive Isiah Leggett, is not liable for the
unlawful act(s) committed against Petitioner Jarvis, by COunty
Officials, who threatened Petitioner Jarvis, depriving Petitioner
Jarvis of his constitutional rights, which contradicts this
Court, which demonstrates the Court here, should grant the
Petition, County Officials
Jarvis.

acted maliciously against Petitioner

("When one person threatens another, he clearly, harbors

actual malice').Id. [App.[A] [Apx.[B]
Monell claims based on a failure to adeguately train,
show a deliberate difference to the rights of persons with whom
the'untrained employees'come into contact. Connick vs. Thompson,
563 V, S. 51, 61 (2011).
A government agency may be held liable, when the
" execution of the governments policy or custom 'causes the
injury. City of Canton, 489 U.S. at 694 (finding government
liability appropriate where official policy was the moving
force behind the constitutional violation"). See Monell, 436
U.S. at 694. Santiago vs. Fenton, 891 F.2d 373, 381 (1st Cir. 1989).

' )

5

III. ISIAH LEGGETT HAS NO IMMUNITY FOR THE MALICIOUS AND DELIBERATE
ACT(S) BY COUNTY OFFICIALS MICHAEL SUBIN & MELISSA WIAK
Certiorari is warranted here, to address several questions
in this case of public importance, because the Court of Appeals
failed to address the questions of importance in the brief.
This Court should decide whether the Court of Appeals,
erred, when it failed to follow the Supreme Court's precedent,
ommitted facts in the case, and failed to address the crux
of the case, and the important question on appeal, and that is
Isiah Leggett has no immunity for deliberate and malicious act(s)
in this case.

County Officials Michael Subin, and Melissa Wiak,

contacted Petitioner Jarvis, threatening to call authorities if
he contacted any County agency to file complaint. These are
malicious and deliberate acts, and an important question
with respect to the public, as it relates to

public officials

in the County, violating the rights of citizens , and threatening
them without consequence, and whether, Public officials

have the

right to threaten the public, denying rights to individuals. [Apx .[A][B ]
The Maryland Court of Appeals, own precedent states:
that, common law public official immunity is not available
with respect to deliberate act(s) that form the basis for
intentional torts, contrary , to the lower court's opinion.
Thus, immunity protects all but the plainly incompetent,
or those who knowingly, violate the law. Malley vs. Briggs, 475
U.S. 335, 341 (1986).

6
The Court stated, 'either the risk must be abated, or, if
the officer is uncertain as to it's depth or degree, an
investigation must ensue. An officer "would not escape liability
if the investigation showed that he merely, refused to verify
underlying facts he strongly, suspected to exists".Id. at 842n.8.
The purpose of 1983, is to hold 'persons' including,
government entities liable for official acts which violate
an individual's constitutional rights. Monell vs. Dep't of
Social Services, 436 U.S. 658, 691092 (1976)).
Government officials act outside the law, and are personally
liable when their conduct 'shocks the conscious' or offends the
community's sense of fair play'. Rochin vs. California, 342 U.S.
165 (1952).
An official cannot benefit from the doctrine of immunity,
if he had fair warning that his conduct deprived his victims of
constitutional rights. Gibson vs. Brooks, 2004 WL 2095610
(D.Conn. 2004)
When conduct violates 'clearly established statutory or
constitutional rights of which reasonable persons would have
known that, " the official is not protected by immunity". Id.
(quoting Harlow vs. Fitzgerald, 457 U.S. 800, 818 (1982)
As a consequence of Isiah Leggett's illegal conduct,
and violations of Petitioner's constitutional rights in
facilitating the unlawful act(s), certiarari is warranted
here.

7
IV. ISIAH LEGGETT IS NEGLIGENT IN THIS CASE, AS A RESULT
OF THE MALICIOUS AND RETALIATORY ACT(s)
An accordance to Maryland law, under the MTCA, a party
injured by the negligent act, or omission of a official or
employee's, public duties may obtain compensation for that
injury

Id.
Thus, retaliation by a public official for the exercise

of a constitutional right, is actionable. See ACLU vs. Wicomico
County, 999 F.2d 780, 785 (4th Cir. 1993)). Thus Isiah Leggett,
is liable for the malicious acts of his individual agents and
employees.
Monell claims based on a failure to adequately train,
show a deliberate difference to the rights of persons with
whom the '[u]ntrained employees', come into contact. Connick vs.
Thompson.,

563 V. S. 51, 61 (2011) .

In order to prevail on a negligence cause of action, the
plaintiff must prove 'the applicable standard of care, a deviation
from that standard by defendant, and a causal relationship between
that deviation, and the plaintiff's injury'. Evans-Reid, supra, 930
A.2d at 937 n.6. Here, in this case,

Isiah Leggett, owed a duty

of care to Petitioner Jarvis, in which they failed as County
Officials, engaging in threatening act(s), against Petitioner
Jarvis, depriving him of his constitutional rights with malicious
and deliberate act(s) . County Official, Michael Subin, threatened
to contact the authorities on Petitioner Jarvis, if he attempted
to file a discrimination complaint with a County agency,'as well
as threaten Petitioner Jarvis with !guns', engaging in malicious
and deliberate act(s) against Petitioner Jarvis. County Officials
failed in that standard of care, and that caused injury to Jarvis.

8
V. MARYLAND UNREPORTED OPINIONS ARE UNCONSTITUTIONAL AS MD.GEN.PROV.
1-104 IS NOT AUTHORITY, AND IS NEITHER PRECEDENT WITHIN THE RULE
OF "STARE DECISIS" AND IGNORES SUPREME COURT LAW
Unreported opinions at The Maryland Court of Appeals,
are unconstitutional, as Md.Gen.Provi. 1-104,

is not Authority,

nor precedent of this Court, within the rule of [s]tare decisis,
not persuasive authority. An unreported opinion in that Appeals
Court, may not be cited in any Court, which makes unreported
opinions unconstitutional. [Apx.[C][Apx.[D]
STARE DECISIS
Stare decisis, is a legal doctrine that obligates the
Court's to follow historical cases, when making a ruling on a
similar case. In this case, The Maryland Court of Appeals, failed
to follow precedent, authority, or

followed rulings in similar

cases, which makes Md.Gen.Provi. 1-104 unconstitutional, and in
which should grant this Petition on that question alone.
The Maryland Court of Appeals, failed to follow Supreme
Court precedent when ruling on this case, failed to follow
authority, and failed to follow precedent of their own Court,
with respect to.County Officials having no immunity for deliberate
and malicious act(s).

If an Appeals Court fails to follow

persuasive authority, how can the public have any confidence
in that Court, when their is no consistency in the law, and
when that Court goes against the highest Court in the land.
This is why this case, involves an important question in terms
of the public.

Which involves an Appeals Court, failing to

follow persuasive authority, or precedent of the highest Court
in the land, The Supreme Court. In fact, they disregard and
ignore Supreme Court precedent, which is unconstitutional.
[Apx.[C]
[Apx.[D]

9

VI. THE TRIAL COURT ERRED WHEN IT FAILED TO TRANSFER CASE TO
ANOTHER VENUE
Petitioner Jarvis, filed a motion to transfer venue,
due to local prejudice, which occurred in the Montgomery County
Circuit Court, and as a result of unfair ties and proximity to
the Circuit Court in Montgomery County, and Petitioner Jarvis's
inability to receive a fair trial, which was denied by the
Circuit Court.
The change of venue was also to minimize the
prejudicial impact of local sentiment by the Circuit Court
in Montgomery County, Maryland, as well as politics involved
in this case, creating a conflict of interest and the appearance
of impropriety. As such the trial court erred in denying transfer
of venue in this case. Not only because Isiah Leggett was County
Executive, in Montgomery County, but all individuals involved
were either County Officials, County Attorneys, and involved
County agencies in Montgomery County, whom all

of course

were acguainted with one another.
The Circuit Court, being in the same County where
County Officials were being sued, creates a conflict of interest
and constitutes local prejudice that Petitioner Jarvis, would
indeed be subject to, and was subjugated to
Court in Montgomery County Maryland.

by the Circuit

10
CONTRARY TO THE MARYLAND APPEALS COURT, IN IT'S ERRONEOUS RULING
SUITS AGAINST A MUNICIPAL OFFICER AND SUITS AGAINST MUNICIPALITIES
ARE FUNCTIONALLY EQUIVALENT
" Because suits against a municipal officer sued
in his/her official capacity, and direct suits against
municipalities, are functionally eguivalent. There no longer
exist a need to bring official-capacity actions against local
government officials, because local government units, such as
a County Executive or Mayor, can be sued directly". Busby vs. City
of Orlando, 931 F.2d 764, 776 (11th Cir. 1991)).
In this case, the lower court's erred, as it was
unnecessary to bring suit against the government official
Michael Subin, and other County Officials in their official
capacity, because as the 11th Circuit held,

local government

units, such as County Executive's or Mayor's , can be sued
directly, and

suits against municipal officers and municipalities

are 'functionally the same. Id.
Claims against state officers in their

capacity are

functionally equivalent to claims against the 'entity they
represent'. E.g •

t

Ex Parte Town of Landesboro, 950 50.2d

1203, 1207.
As a consequence of the County Executive's illegal
conduct, and facilitating and condoning of the unlawful act(s)
of his County officials, Petitioner Jarvis, is entitled to the
legal and equitable remedies available under 1983, including,
but not be limited to, punitive damages. Id.

VII. CONCLUSION
The Petite .1 for Writ of Certiorari Si._uld be granted.
The Maryland Court of Appeals, failed to follow precedent of
their own court, the Supreme Court, and the Maryland General
Provision 1-104, is not authority, and is neither precedent
with the rule of 'Stare decisis', which makes their unreported
decisions, unconstitutional. The UNREPORTED OPINION IS INCONSISTENT
with this Court, and conflicts with similar rulings in this Court,
and their own appeals court rulings. Maryland Appeals Court
precedent, holds that,' County Officials do not have immunity
for malicious and deliberate act(s), which violate rights.

Respectfully submitted,

i

Derek N. Jarvis, Petitioner-Pro se

